           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                Date:    April 9, 2012
           Single Audit on the Utah Transit Authority
           Report No. QC-2012-085
                                                                              Reply To    JA-20
  From:    Earl C. Hedges                                                      Attn Of:
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region VIII

           The U. S. Department of Transportation (DOT) is the cognizant Federal single audit
           agency for the Utah Transit Authority (Utah Transit). This report presents the results
           of our Quality Control Review (QCR) of a single audit performed by Deloitte &
           Touche, LLP on Utah Transit for the fiscal year ending December 31, 2010. During
           this period, Utah Transit expended approximately $215 million from DOT grant
           programs, as shown on the attached Schedule of Expenditures of Federal Awards
           (SEFA). The DOT program determined to be major by Deloitte & Touche, LLP was
           the Federal Transit Cluster.

           The Office of Management and Budget's (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations,” requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of Federal
           funds, and report internal control and compliance deficiencies that affect Federal
           grant programs.

           Deloitte & Touche, LLP rendered an unqualified (clean) opinion on Utah Transit's
           financial statements, did not question any costs concerning DOT's grant program,
           and rendered an unqualified opinion on DOT's major program, the Federal Transit
           Cluster. 1

           SCOPE

           The purpose of our QCR was to determine: (1) whether the audit work complied
           with generally accepted Government auditing standards, the Single Audit Act
           of 1984, as amended (the Act), and OMB Circular A-133, and (2) the extent to which
           we can rely on the auditor's work.



           1
              The single audit report issued by the Deloitte & Touche, LLP is available upon request sent to
           singleauditrequest@oig.dot.gov.
                                                                                 2

RESULTS

We determined that Deloitte & Touche, LLP's work was Acceptable, and therefore
met the requirements of generally accepted Government auditing standards, the Act,
and OMB Circular A-133. We found nothing to indicate that Deloitte & Touche,
LLP's opinion on Utah Transit's reports on internal control and compliance were
inappropriate or unreliable.

However, we identified the following deficiencies as part of our desk review of the
Utah Transit’s Fiscal Year 2010 Single Audit Report.

   • Utah Transit’s SEFA did not include the “ARRA prefix” for grant number
     UT-96-X002 as part of the Federal Transit-Formula Grant Program and for
     grant number 10-020JL as part of the Utah Clean Cities Coalition Program
     title description. During our QCR, we reviewed the audit documentation and
     Utah Transit’s Data Collection Form and confirmed that the ARRA prefix was
     included for both programs. However, while the audit documentation was
     correct, the SEFA was not.

   • Utah Transit’s SEFA did not identify the correct Catalog of Federal Domestic
     Assistance (CFDA) number for the Federal Transit–Transit in the Parks
     Program.

If you have any questions concerning this report, please call me at (410) 962-1729 or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

Distribution:


cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Chief Financial Officer, Utah Transit Authority
    National Single Audit Coordinator, Department of Energy, OIG
